<html>
<title> - LOOKING FORWARD: U.S.-AFRICA RELATIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 LOOKING FORWARD: U.S.-AFRICA RELATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        TUESDAY, MARCH 26, 2019

                               __________

                           Serial No. 116-19

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov,

                    or http://http://www.govinfo.gov
                    
                    
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-615PDF                    WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c3c230c2f393f382429203c622f232162">[email&#160;protected]</a>                           
                    
                    
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                     
                   
                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
                                 
                                 
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

                     KAREN BASS, California, Chair

SUSAN WILD, Pennsylvania             CHRISTOPHER SMITH, New Jersey, 
DEAN PHILLIPS, Minnesota                 Ranking Member
ILHAN OMAR, Minnesota                JIM SENSENBRENNER, Wisconsin
CHRISSY HOULAHAN, Pennsylvania       RON WRIGHT, Texas
                                     TIM BURCHETT, Tennessee

                     Janet Yarwood, Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                           PREPARED STATEMENT

Prepared statement submitted by Chairperson Bass.................     4

                               WITNESSES

Thomas-Greenfield, Linda, Senior Counselor, Albright Stonebridge 
  Group, Former Assistant Secretary of State for African Affairs.    14
Coulibaly, Dr. Brahima, Director, The Brookings Institution......    34
Meservey, Joshua, Senior Policy Analyst, The Heritage Foundation.    45

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Amnesty International report submitted from Representative Omar..    66

                                APPENDIX

Hearing Notice...................................................    79
Hearing Minutes..................................................    80
Hearing Attendance...............................................    81
Additional materials submitted for the record....................    82

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Questions submitted from Representative Smith....................    87

 
                 LOOKING FORWARD: U.S.-AFRICA RELATIONS

                        TUESDAY, MARCH 26, 2019

                          House of Representatives,
             Subcommittee on Africa, Global Health,
            Global Human Rights, and International 
                                     Organizations,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The subcommittee met, pursuant to notice, at 2:50 p.m., in 
Room 2200 Rayburn House Office Building, Hon. Karen Bass (chair 
of the subcommittee) presiding.
    Ms. Bass. Good afternoon, everyone. This hearing for the 
Subcommittee on Africa, Global Health, Global Human Rights, and 
International Organizations will come to order.
    The subcommittee is meeting today to hear testimony. And 
the title of our hearing is ``Africa Looking Forward: U.S.-
Africa Relations.'' Without objection all members may have 5 
days to submit statements, questions, materials for the record, 
subject to the length limitation in the rules.
    I will now make an opening statement and then turn it over 
to the ranking member for his opening statement.
    The subcommittee is meeting today to hear testimony on 
Looking Forward: U.S.-Africa Relations. Basically, we are here 
to ask what U.S. engagement with African countries should look 
like moving forward.
    We mentioned in the first hearing that we wanted to take 
our first few hearings as an opportunity to really provide an 
overview of the jurisdiction that this committee covers. And 
recognizing that the only two members on this committee that 
have been on this committee for a while, we have all new 
members, and so for that reason wanted to take a step back and 
really provide an overview.
    The African continent is comprised of 50-plus countries and 
more than 1.2 billion culturally distinct peoples in different 
geographic regions. This diversity results in diverging 
political, economic, and social experiences across the 
continent. This means that our policy has to take that 
diversity into consideration. The continent cannot be painted 
with one brush.
    After years of democratic progress, African democracies 
have faced ups and downs. Some countries are progressing while 
others appear to be backsliding. Meanwhile, African citizens 
favor democracy and continue to take to the streets to demand 
responsive and accountable governance.
    How do we encourage countries to support the desire for 
democracy by their citizens?
    What tools should we be using?
    Regarding issues around good governance, democracy, and 
human rights, there are a number of countries that I look 
forward to hearing about in your testimony or in the Q&A. 
Cameroon is very concerning at the moment, and the government's 
reaction to protests in Sudan is also an area of concern.
    In addition, sub-Saharan Africa is experiencing major 
demographic changes, including a youth bulge and urbanization. 
People age 35 and under account for more than 75 percent of 
Africa's population, with the continent expected to become the 
world region with the highest urbanization. While the continent 
is undergoing this major urban transition and youth bulge, some 
of the world's fastest growing economies are in African 
countries. In fact, several international observers have named 
the continent the future economic growth engine of the world.
    Other nations are deepening their relationships with 
countries across Africa, and instead of critiquing, we have to 
find ways to show up and engage. I look forward to hearing 
witnesses' recommendations on what this engagement should 
entail.
    Most of you know that I advocate for increased trade, 
investment, and business activity between Africa and the U.S. 
From my perspective this is a win/win situation. We help U.S. 
businesses again access to new markets while creating jobs and 
building capacity across Africa. And we know that this is 
increasingly essential, given the youth bulge.
    We are often critical of China's involvement on the 
continent. And I am not sure what we expect the African 
countries to do, but the solution that I like to promote is 
that the United States needs to step up.
    In his December 2018 public remarks, National Security 
Advisor Bolton identified three core U.S. interests in Africa: 
expanding U.S. trade and commercial ties with African 
countries; countering the threat from terrorism and violent 
conflict; and imposing more stringent conditions on U.S. aid 
and U.N. peacekeeping missions in the region.
    My hope is that the witnesses can highlight other areas 
that we should focus on when we consider U.S.-Africa relations.
    I have been disappointed that the Administration has not 
emphasized democracy, good governance, or human rights. That 
said, the Administration has maintained most Africa-focused aid 
initiatives launched by previous Congresses and, in some cases, 
has sought to fund them, however, at far lower levels. These 
include the global President's Emergency Plan for AIDS, or 
PEPFAR, and Feed the Future, and Africa-specific Young African 
Leaders Initiatives, and Electrify Africa. Electrify Africa and 
Feed the Future were initiatives that were put in the statute 
by the former Chair Ed Royce.
    And I am glad that those initiatives have continued, but 
concerned about the cuts in funding.
    I will conclude by stressing that U.S.-Africa relations 
with--that U.S. relations with Africa has always enjoyed 
bipartisan support here in Congress. And we expect to continue 
to work together. Each time the Administration has sought to 
reduce funding to the State Department or USAID, especially 
those that would impact African countries, we have worked 
together in a bipartisan manner to restore that funding.
    I now recognize the ranking member for the purpose of 
making an opening statement.
    [The prepared statement of Ms. Bass follows:]

 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Wright. Thank you, Madam Chair. And I want to thank the 
witnesses for coming forward today and spending time with us.
    I believe I speak for all of us when I say that the 
importance of U.S. engagement in Africa cannot be overstated. I 
was pleased to see the Administration recognize this and 
release a dedicated Africa strategy in December. It's critical 
for the American people to understand our interest in Africa, 
and for Africa to see our commitment to the continent. In my 
opinion, the strategy goes a long way in both respects.
    In recent years, policy and debate on Africa has centered 
on counterterrorism, foreign assistance, conservation, women 
empowerment, development, good governance, and human rights, 
among other things. While I am proud of the progress we have 
made in our counterterrorism efforts, we must continue to be 
proactive, particularly in the Sahel. As we have seen in the 
Middle East, left unchecked, extremist organizations have the 
potential to carry out deadly attacks across the globe and spur 
tragic humanitarian crises as people flee from harm's way.
    The same can be said on development and women empowerment. 
The BUILD Act and the Women's Entrepreneurship and Economic 
Empower Act, which were both signed into law last Congress, 
will have a tremendous impact, but we must do more. Africa 
continues to grapple with high poverty rates, food insecurity, 
insufficient healthcare and education systems, and 
infrastructure deficiencies. Addressing these issues is not 
only in the best interests of Africans but in the best 
interests of Americans.
    For this reason, I introduced the Digital Global Access 
Policy Act which promotes expanding internet access in 
developing countries and, in turn, will help Africa overcome 
many problems I just mentioned. It is my hope that this 
committee and the House of Representatives will soon take up 
this critical legislation.
    While many of the previous issues I have highlighted will 
continue to dominate our efforts in Africa, we must turn our 
attention toward countering China and Russia as they expand 
their financial and political influence across the continent. 
Through its Belt and Road Initiative, China has secured 
significant leverage over many African countries, and access to 
Africa's precious natural resources. China's construction of 
its first overseas military base in Djibouti is also a cause 
for concern, given its close proximity to ours.
    We see similar interest from Russia, albeit it even more 
defense-focused.
    Checking Chinese and Russian investment and influence in 
the region, and the rest of the world, is critical to U.S. 
national security. We cannot write blank checks or discount 
requirements that come along with U.S. assistance, but we must 
think critically and innovatively about how we can offer an 
alternative.
    I look forward to what will certainly be a productive and 
enlightening discussion about our next steps in Africa. Thank 
you, and I yield back.
    Ms. Bass. Thank you very much, Mr. Ranking Member. I now 
want to introduce our witnesses.
    First, Ambassador Linda Thomas-Greenfield. She joined ASG 
as a senior counselor after serving as the U.S. Assistant 
Secretary of State for African Affairs from 2013 to 2017. In 
this capacity, Ambassador Thomas-Greenfield led U.S. policy 
toward sub-Saharan Africa with a focus on peace and security, 
democracy and governance, economic empowerment, and investment 
opportunities.
    Prior to this appointment she served as Director General of 
the Foreign Service and Director of Human Resources where she 
oversaw all personnel functions for the U.S. Department of 
State's 70,000-strong work force. Previously, Ambassador 
Thomas-Greenfield served as the U.S. Ambassador to Liberia from 
2008 to 2012, and held posts in several other African nations.
    Ambassador Thomas-Greenfield is also a distinguished 
resident fellow in African affairs at the Institute for the 
Study of Diplomacy at Georgetown University.
    Dr. Coulibaly is a Senior Fellow and Director of the Africa 
Growth Initiative at the Brookings Institute. His research 
focuses on creating economic opportunities and prosperity in 
sub-Saharan Africa by improving development, finance, local 
trade, monetary policies, and banking, financial institutions, 
and markets. His most recent work includes the research papers 
``Mobilization of Tax Revenues in Africa,'' ``Meeting Africa's 
Employment Challenges in the Changing World,'' as well as 
serving as the editor for the Initiative's Annual Flagship 
Report, ``Foresight Africa: Top Priorities for the Continent.''
    Joshua Meservey is a Senior Fellow Policy Analyst, Africa 
and the Middle East, at the Heritage Foundation. He specializes 
in African geopolitics, counterterrorism, and refugee policy. 
In 2009 he joined Church World Service based out of Nairobi, 
Kenya, and traveled extensively in East and Southern Africa 
interviewing refugees. He ended his time at CSW as, as field 
team manager responsible for a multinational team of nearly 100 
staff.
    In 2012 he worked at the U.S. Army Special Operations 
Command and helped write an Army concept paper. He is the lead 
author of a monograph on al-Shabaab's insurgency, and his other 
work has appeared in many other publications.
    I want to thank the witnesses for taking the time. Again, I 
want to thank you for your patience. Apologize for the delay. 
And ask you to begin your testimony.
    We do not have a clock. I will be keeping track on my 
trusty iPhone here, and will notify you when 5 minutes are up. 
I know that you all have written testimony that you have 
submitted, so within 5 minutes if you could summarize your 
testimony. And could you begin, Madam Ambassador.

    STATEMENT OF AMBASSADOR LINDA THOMAS-GREENFIELD, SENIOR 
    COUNSELOR, ALBRIGHT STONEBRIDGE GROUP, FORMER ASSISTANT 
             SECRETARY OF STATE FOR AFRICAN AFFAIRS

    Ambassador Thomas-Greenfield. Thank you very much. I will 
do my best.
    Chairwoman Bass, Ranking Member Wright, and distinguished 
members of the committee, thank you for inviting me to testify 
at this important hearing on the future of United States policy 
toward Africa. Allow me to thank all of you for your commitment 
and service to Africa, and some of you for your support during 
my tenure as Assistant Secretary from 2013 to 2017.
    I also want to take a moment to acknowledge the dreadful 
situation in Mozambique, Malawi, and Zimbabwe as a result of 
Cyclone Idai which has led to hundreds of deaths, and thousands 
of displacement, and millions of dollars in destruction. This 
should be at the forefront of our thinking on Africa today.
    2019 is a critical time for Africa policy. There have been 
a series of long-term trends and recent developments which have 
put the continent at the forefront like never before. That is 
why it is crucial that there be sustained and consistent U.S. 
engagement on the content.
    The U.S. has consistently shown great bipartisan leadership 
on African issues. The bipartisan focus of our government led 
to the passing of programs as the--as Congresswoman Bass 
mentioned, such as the President's Emergency Plan for AIDS 
Relief, the President's Malaria Initiative, the Africa Growth 
and Opportunity Act, YALI, the Millennium Challenge Account, 
Feed the Future. All of these programs have withstood the tests 
across, of time across administrations. And these programs are 
laced with our value system at the core: democracy, good 
governance, human rights, and prosperity, all of which made the 
U.S. a major player on the continent of Africa.
    The positive bipartisan engagement with Africa continued 
with the current administration's BUILD Act and PROSPER Africa 
initiatives. These initiatives seek to further strengthen trade 
ties with a still burgeoning Africa market full of 
opportunities.
    The United States brings many resources to the table that 
other countries do not. The United States hosts a large and 
vibrant African diaspora community who have made significant 
contributions to America, both economically and socially. And 
as we commemorate the 400-year anniversary since the first 
African arrived to this land in bondage, we must remember the 
deep historical connections between the U.S. and Africa.
    Allow me to touch briefly on a few issues we should 
address. My full testimony is provided in writing and gives a 
more fulsome list.
    First, Congressman Bass, you mentioned the youth bulge. 
Africa is facing an unprecedented demographic evolution with 
half the population under the age of 19. Estimates are that by 
2050, the population of the African continent will have doubled 
from 1.2 million to 2.--1.2 billion to 2.5 billion, 
representing a quarter of the world's population. It is vital 
that the United States work to help African countries use this 
growth to foster prosperity.
    Security and terrorism, maybe one of the most critical 
areas of collaboration with African States, involves security. 
Continued U.S. engagement with African stakeholders to tackle 
these threats is necessary. The proposed reduction of 10 
percent of American troops deployed on the continent sends the 
wrong message to our partners.
    On democracy and democratic transition, the fact that the 
national security advisory did not mention democracy in his 
December Africa policy speech did not go unnoticed on the 
continent. The United States must continue to promote democracy 
programs across the continent. In the long-term, democracy 
contributes to better governance, human development, security, 
and economic growth.
    Climate change. It is important that we engage African 
policymakers on climate change and adopting environmentally 
conscious policies. Renewed international commitments to 
elements of the Paris Climate Change Agreement would benefit 
Africa's efforts to address some of the environmental changes 
it now faces.
    And while I cannot emphasize enough how important it is to 
engage on the entire continent, there are some countries that I 
believe decisionmakers should prioritize.
    First, Nigeria. The importance of the most populous country 
in sub-Saharan Africa and its No. 1 economy is self evident. 
And as President Buhari embarks on his second and final term, 
the U.S. needs to remain supportive of reforms that will help 
entrench democratic values.
    South Africa will hold elections in May of this year. And 
as the next administration in South Africa deals with 
institutional corruption and the tricky waters of land 
redistribution, the U.S. needs to support the country's 
transition to let the South African people know we are standing 
side by side with them.
    Ethiopia. Ethiopia is an example of the profound change 
that African countries can go through quickly with principled 
leaders at the helm. The United States should ramp up its 
engagement with the Government of Ethiopia to ensure these 
reforms continue unhindered, and that they become 
institutionalized within Ethiopia. The United States should not 
squander the opportunity to build closer relationships with 
this vital player.
    South Sudan. In South Sudan the U.S. has fallen behind on 
diplomatic leadership, and I believe we have abdicated 
responsibility for a State we helped birth. The United States 
should designate a special envoy to provide U.S. leadership who 
can work with leaders in the region to break the cycle of 
continued conflict in South Sudan.
    I welcome in DRC the appointment of Dr. Peter Pham as the 
Special Envoy for the Great Lakes Region of Africa in November 
2018. It is important following the election that the U.S. 
continue to engage with the Congolese president.
    And I see you are about to grab, so I am going to skip.
    But I have mentioned Ghana. And I do mention Tanzania, 
Sudan, Cameroon that I know in particular that you think is 
very important.
    But finally, let me just say that to achieve our goals in 
Africa and around the globe we must have sustained, strong 
diplomatic efforts. The visit, recent visit of Deputy Secretary 
Sullivan to South Africa and Angola, and Assistant Secretary 
Nagy to Cameroon, DRC, Rwanda, and Uganda, highlight the type 
of engagement that is needed. But they need help from more 
senior officials in the administration to engage. And I think 
for this reason it is time for a second Africa Leaders Summit.
    And also, we have, we have too many Ambassadorships in 
Africa that are still vacant. And many of them are in some of 
these important countries that I mentioned. And in order for us 
to have successful engagement with the African continent we 
need to invest in more diplomatic presence on the ground, 
particularly our Ambassadors.
    Ms. Bass. Thank you.
    Ambassador Thomas-Greenfield. Ultimately, the United States 
should take a more positive, proactive approach to Africa, 
emphasizing the potential of the continent rather than its 
risks. It is absolutely in the interests of the United States 
to see the continent of Africa grow and thrive.
    I look forward to your questions.
    [The prepared statement of Ambassador Thomas-Greenfield 
follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

    Ms. Bass. Thank you.
    Dr. Coulibaly.

STATEMENT OF BRAHIMA COULIBALY, PH.D., DIRECTOR, THE BROOKINGS 
                          INSTITUTION

    Mr. Coulibaly. Thank you, Madam Chair Bass, and Ranking 
Member Wright. So let me begin by applauding your leadership as 
well as that of Congressman Smith, and your active role in 
fostering the bipartisan collaboration that has traditionally 
characterized the U.S. legislation in Africa.
    And my appreciation to the members of the committee for the 
opportunity to share my views on the subject.
    This is indeed an opportune time to reassess the future of 
U.S.-Africa relations because there is an emerging consensus, 
which I share, that the U.S. is falling behind in Africa. In my 
view, this is not because U.S. policies toward Africa have 
failed. In fact, and as was mentioned earlier, U.S. policies 
and programs such as AGOA, PEPFAR, the Malaria Initiative, 
Power Africa, YALI, have all been successful in impact overall.
    But whether it is because Africa is transforming rapidly 
and the architecture of our engagements needs to adapt to this 
dynamism and to the evolving aspirations of the African 
countries. So, following a period of political and social 
instability, as well as weak economic growth, Africa's fortunes 
have begun to turn around the year 2000. Since then, thanks to 
better domestic policies and favorable global environment, 
economic growth has been strong, boosting commercial 
opportunities.
    Importantly, Africa is experiencing a demographic boom and 
rapid urbanization. By the turn of the century, 40 percent of 
the world's population, and 42 percent of its work force will 
be African.
    And to better respond to the growing needs of the 
populations, Africa's leadership and institutions are becoming 
more assertive in the ownership and advancement of the 
continent's agenda. The unprecedented dynamism on the continent 
is creating tremendous commercial opportunities in trade and 
investment, and it is not an exaggeration to say that Africa is 
on a course to be the world's next big growth market.
    Earlier this month the cover page of the Economist magazine 
read, ``The New Scramble for Africa.'' It was capturing what 
those following developments on the continent already knew. 
Commercial opportunities that Africa presents, as well as some 
of the transnational threats originating from the region are 
attracting interest from an increasingly diverse group of 
foreign countries working proactively to strengthen diplomatic, 
defense, and commercial ties with the continent.
    The most active foreign countries are non-traditional 
partners, and their emergence is challenging the partner of 
choice status that traditional partners, including the United 
States, have enjoyed. While diplomatic and the defense ties are 
broadening and strengthening, shifts in commercial ties have 
been the most significant.
    Between 2010 and 2017, Africa's trade with countries such 
as Russia, Thailand, Turkey, Indonesia, and China, have risen 
very fast. In contrast, trade with the United States fell by 
more than half over this period. And the United States is no 
longer among Africa's top three trading partners.
    Although the United States still has the largest stock of 
foreign direct investment, this stock has barely increased 
since 2010, while investment from other countries, particularly 
China, has increased significantly.
    So, in this new scramble for Africa what can the United 
States do to keep up?
    First, I think the U.S. should articulate a clear 
bipartisan, long-term vision for its U.S.-Africa policy 
following broad consultation with key stakeholders, including 
U.S. and Africa businesses but, importantly, the African Union. 
The vision should align to the extent possible with the African 
Union's Agenda 2063 and the U.N.'s Agenda 2030 that African 
countries have adopted.
    Given increasing interdependencies between defense, 
diplomacy, and development, the vision should encompass 
engagements on all three dimensions but with greater emphasis 
on the commercial ties with the most potential to yield the 
most significant mutually beneficial outcomes.
    Second, to accelerate the commercial engagement, the United 
States should appoint a high level White House official with a 
mandate to work across U.S. agencies to advance U.S. commercial 
policy.
    Third, the U.S. should initiate a regular high level summit 
between the United States and African States, as the external 
partners, including China, India, Japan, Turkey, and the 
European Union, all have held two or more high level summits in 
recent years which have advanced their engagement with Africa. 
In contrast, the U.S. has held only one high level summit, and 
that was in 2014.
    While not a panacea, I believe these recommendations will 
go a long way to provide the needed clarity, predictability, 
and stability in U.S. engagement with Africa. The presence of 
other countries on the continent will only strengthen with 
time. And the United States does have a solid foundation and 
the legacy in Africa on which to build. However, without more 
proactive approaches the U.S. is just falling further behind.
    Ultimately, the future of U.S.-Africa relations will be 
determined more by U.S. policy and actions, or lack thereof, 
toward Africa than by those of other countries toward Africa.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Coulibaly follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Ms. Bass. Thank you very much.

   STATEMENT OF JOSHUA MESERVEY, SENIOR POLICY ANALYST, THE 
                      HERITAGE FOUNDATION

    Mr. Meservey. Chairwoman Bass, Ranking Members Wright, and 
members of the committee, thank you for this opportunity to 
testify. Thank you as well for your continued focus on and 
championing of deeper U.S.-Africa ties. The views I express in 
this testimony are my own and should not be construed as 
representing any official position of The Heritage Foundation.
    In may remarks I will focus on what I consider to be the 
four most important U.S. strategic priorities in Africa.
    First, the U.S. must retain sufficient influence and 
positioning to protect its national interests on the continent. 
This is an evergreen challenge that has grown more urgent given 
the rising great and middle power competition in Africa.
    As is often commented upon, Djibouti is a good example of 
this problem. Its port is critical to U.S. military operations 
in East Africa, yet the Chinese government has built such 
influence there that there is concern the U.S. will be unable 
to maintain the necessary level of access.
    The U.S. is already far behind in the competition to 
develop and deploy 5G mobile network technology in Africa. The 
winner of this competition will gain great economic and other 
advantages. Chinese companies Huawei and ZTE have built most of 
the existing telecoms infrastructure in Africa, and several 
large African telecom companies are already negotiating with 
Huawei on building 5G networks.
    Huawei's and ZTE's dominance in Africa is also an obvious 
counterintelligence problem for the United States. Relatedly, 
Chinese companies have built, or renovated, or Beijing has 
financed at least 63 sensitive government buildings in at least 
29 African countries. We should assume most, if not all, of 
those buildings are bugged or otherwise compromised, as was the 
Chinese-built African Union headquarters.
    Second, the U.S. should facilitate regulatory and normative 
environments that ensure U.S. companies can compete on an even 
footing in Africa. By 2030, an estimated 19 African economies 
will be growing by 5 percent or more per year and the continent 
will likely constitute a $3 trillion economy. It will harm the 
U.S. and ordinary Africans if anti-competitive behavior becomes 
the norm and further disadvantages U.S. firms.
    Third, the U.S. should encourage the growth of African 
democracy. It is the political system that best promotes human 
flourishing. And shared democratic values facilitate mutually 
beneficial relationships between the U.S. and other countries. 
After years of progress on the continent in this regard there 
has been worrisome backsliding in a number of countries.
    Finally, the U.S. must ensure terrorists cannot use Africa 
as a staging ground for attacks against the U.S. There have 
been gains against some of the continent's worst groups, but we 
are also in the midst of a resurgence of terrorist activity in 
the Sahel region. The Islamic State West Africa Province and 
Jama'at Nusrat al Islam wal Muslimeen have been particularly 
active and ambitious.
    A long-term component of the terrorism problem is the 
spread of the Wahhabist practice of Islam in Africa. Saudi 
Arabia in particular has proselytized this fundamentalist 
practice, important components of which most current Islamist 
terrorist groups subscribe to.
    Responding in a constructive way to the problems and 
prospects of Africa requires a thoughtful, committed approach. 
In that spirt, I think the U.S. should do the following, and 
this is not a comprehensive list:
    Assess with which governments it can reasonably expect to 
have a mutually beneficial partnership. Good candidates should 
receive a full suite of U.S. engagement, while poor candidates 
should be more economy-of-force operations.
    Assist African countries to become more business friendly; 
foster African entrepreneurs; aid African countries to get the 
best possible deals from Chinese investments; task U.S. 
embassies with identifying and facilitating commercial 
opportunity for U.S. companies, foster good governance in 
Africa by assisting civil society, fighting corruption, and 
deepening cooperation with non-African allies active on the 
continent; create a strategic messaging plan that explains to 
African countries the benefits of partnering with the United 
States; make the U.S.-Africa Leaders Summit a routine event; 
and ensure that the new International Development Finance 
Corporation achieves its stated purpose of supporting the U.S. 
in its strategic competition with China.
    The U.S. already has a strong foundation of African 
engagement of which it should be proud. But it also can and 
should do more. I thank the committee again for doing its part 
to ensure that U.S. policies protect American interests and 
contribute to a safe, prosperous, and free Africa.
    I look forward to any questions you may have.
    [The prepared statement of Mr. Meservey follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Ms. Bass. Thank you very much. I want to thank all three of 
our witnesses today for your testimony. And would now like to 
begin with members asking questions. And I actually will hold 
my questions and ask them last, since I know members have 
numerous conflicts.
    So, I will go to the ranking member.
    Mr. Wright. Thank you, Madam Chair. And I was happy to hear 
you mention Cameroon in your opening statement because I also 
have very deep interest there. I have a number of constituents 
in my district from Cameroon. And I have heard from both sides.
    And there is a concern that as the resistance in Anglophone 
Cameroon continues that security forces of the Government of 
Cameroon will continue to clamp down which will cause even 
further growth in resistance and the whole thing will spiral.
    And so, my question is what can and should, in your 
opinion, the U.S. Government do in Cameroon? And, Madam, I am 
going to ask all of you that question. Madam Ambassador, I am 
going to start with you.
    Ambassador Thomas-Greenfield. Thank you very much.
    I think the first thing that we can do, and this has 
already, was already done by Assistant Secretary Nagy, was 
engage with the government on this issue. I think for a number 
of months and for the past year we have ignored what was 
happening in any consistent way.
    So Assistant Secretary Nagy was there and I know that he 
did raise this issue with the government. I do not know the 
gist of the conversation, but I can imagine that he expressed 
our concerns about this issue.
    I think in the long run we may have to take some actions 
against the government and other parties who are committing 
human rights violations. I am sure you have seen the pictures 
that we have all seen coming from that situation. And the 
pictures are coming from both sides. The atrocities are being 
committed by both sides, and people should be held accountable 
for that to send a strong message, that this is not the way you 
address these kinds of issues.
    Mr. Wright. Dr. Coulibaly.
    Mr. Coulibaly. Yes, I would echo off Ambassador Thomas-
Greenfield's sentiment for the U.S. to take a stronger stance 
where it deems there to have been some already violations of 
the human rights and an opportunity to put as much pressure on 
the government as possible to respect the rights of all.
    Mr. Wright. Mr. Meservey.
    Mr. Meservey. Yes, I agree with my colleagues comments. I 
think it is very important that the Cameroonian Government 
understand that the U.S. is watching. I think regional 
engagement is always very important in these sorts of conflict, 
so the U.S. should be working very actively with neighbors and 
other concerned countries, the Africa Union.
    This doubtlessly concerns many African countries, and the 
U.S. should be playing the unique role that it can as a 
facilitator and a convener to try to get them working or 
pulling in the same direction, working with a singular purpose 
on Cameroon.
    Mr. Wright. Thank you, Madam Chair.
    Ms. Bass. Oh, wonderful.
    Representative Omar.
    Ms. Omar. Thank you, Madam Chair.
    Very excited to see all of you and hear your testimony.
    Ambassador, I do not know if you remember me, but we met in 
Minneapolis right after I had been elected to the Minnesota 
House. And so, as you probably know, there is a little crisis 
right now that is happening to many of my constituents and 
friends and neighbors who are from Liberia, who are on a DED 
status. And I know that in your history that you served as an 
ambassador to Liberia.
    And so, I wanted to see if we can maybe chat about this 
particular crisis that is being visited upon many of my 
constituents. Last week was a recess week for us, and so I got 
home. And, you know, we visited many workplaces. There are the 
majority of the Liberians in my district and in Minnesota are 
healthcare workers, and so one of the places that I visited was 
an assisted living center where 177 of their employees were DED 
recipients. And their status ends on the 31st of this month. 
And so if that is not renewed, most of them are most likely 
going to be returned back to Liberia.
    And so I know that there is going to be a great impact on 
our community. There is going to be a great impact on my 
district. But I wanted to see if you maybe can help us sort of 
fully understand the impact that it might have on the folks in 
Liberia.
    Do you know how many, how much money in remittances do 
Liberians here in this country send back to Liberia?
    Ambassador Thomas-Greenfield. I do not know that exact 
figure. But I know that it is significant, just as it is across 
the continent of Africa. It plays a huge role in the economy of 
Liberia.
    But I appreciate the question related to Liberians who are 
beneficiaries of DED. This was an issue that came up numerous 
times during my tenure as the Ambassador to Liberia. I will 
admit that at the time, given the fact that President Sirleaf 
was president of the country, and the country was going through 
significant transformation in a positive way, that I wanted to 
encourage Liberians who were living in the U.S. to come back 
and be part of the success that was Liberia.
    In the meantime, you know, as I have returned to the U.S., 
this is a much more comprehensive and bigger issue than 
Liberia. I met a young Liberian women a few--last week, in 
fact, who was a DACA recipient. And she had lived here in the 
United States since she was 4 years old. She does not know 
anyone in Liberia. She is currently a student at a university 
here in the United States, doing quite well, interning in 
Washington, DC. And she is fearful of what she will find in 
Liberia.
    And I tried to encourage her by telling her there is 
nothing to fear. But it is easy for me to say that sitting here 
without the fear of being returned to a place that I do not 
know. And I left that discussion with her extraordinarily 
sympathetic to her plight. And I do believe that as we look at 
the broader DACA issues related to all of the nationalities 
here in the United States, the Liberians have to be part of 
that comprehensive solution.
    Whether that can happen by the end of March, I do not know. 
But I do know that if they are to return to Liberia, right now 
they are going to return to a country that is at peace. But I 
think the economy there is in a bit of a downfall. And so it 
will be very, very difficult for these individuals to 
reintegrate back into Liberia, having been out of Liberia as 
long as they have been out of Liberia.
    Ms. Omar. Yes.
    Ambassador Thomas-Greenfield. In addition, their family 
members who have been dependent on their remittances will no 
longer have that benefit.
    Ms. Omar. Yes. Thank you for that broad overview of the 
issue.
    And that brings me, actually, to the second question I was 
going to ask you is that while you say it is at peace, many of 
my constituents and my friends and neighbors say that it is not 
economically or physically safe for them to return. And we know 
that an assessment usually is done for a country before we 
decide to terminate the temporary status. And so, do you think 
that this president and Secretary Nielsen have done or at least 
asked for that assessment to be made before making a decision 
to terminate? That is the first part of my question.
    And then the second part is do you think Liberia is ready 
to absorb all of the people that are going to be returned back 
to it? And will that maybe harm any peace or stability it might 
currently have?
    Ambassador Thomas-Greenfield. I would assume, and I do not 
know, that any assessments that are required have been done 
either by our embassy or by the State Department. But I cannot 
answer that question with any----
    Ms. Omar. We have not been able to see one, so.
    Ambassador Thomas-Greenfield. So, again, I do not know the 
answer to that.
    Again, having lived in Liberia for 4 years and worked on 
Liberia, Liberian issues my entire life, I know the country 
quite well. I think the country will have difficulty absorbing 
a large number of people because they are having difficulty 
dealing with the economic challenges of the people who are 
living there now.
    That said, in terms of the safety factor, we were dealing 
with a country that was at war for 14 years, where people were 
being killed regularly. That does not happen in Liberia 
anymore. I did find Liberia to be safe.
    Ms. Bass. I am going to go to Mr. Burchett and then we will 
do another round.
    Mr. Burchett. I can yield a minute if she wants to finish 
her thoughts. I hate to come back. She might have to go 
somewhere. I have got to go somewhere, too, but I would be----
    Ms. Omar. I have got time. I am good.
    Mr. Burchett. You are good?
    Ms. Omar. Yes.
    Mr. Burchett. OK. I thank the chairlady, ranking member, 
Ms. Omar.
    I have just about two or three different questions, and I 
will try to hit them pretty fast because I know our time is 
limited.
    As you all know, violent extremist groups threaten State 
stability, regional security, and international interests in 
Africa. And I want to focus mainly on the Lake Chad Basin 
region and Boko Haram. What are your thoughts on this terror 
group now that the Islamic State has recognized a rival faction 
as opposed to Abubakar Shekau; does this fragmentation make 
them more or less of a threat?
    Go ahead, ma'am, in that pretty outfit. I am going to call 
on you first, if that is all right, Chairlady. Am I allowed to 
do that.
    Ambassador Thomas-Greenfield. You know, I think the threat 
that Boko Haram and any groups that have spiraled from that 
organization continue to have a major impact in the region. We 
have seen that impact in Northern Nigeria, we have seen that in 
Chad, in Niger, and further afield. And this is why I think it 
is important that we continue to engage with African countries 
to address this issue, because terrorism, wherever it happens, 
impacts all of us.
    When there was an attack on a hotel in Mali a couple years 
ago an American citizen was killed in that attack. So we are 
not safe if we are not working with those countries to address 
these issues.
    Mr. Coulibaly. Yes. I think the Lake Chad region more 
broadly to look at it is basically where issues like terrorism, 
climate change, State fragility all come together. And the 
solution in my view today has to be a long-lasting one that is 
able to encompass both economics as well as security 
interventions.
    If you take the Lake Chad region, for example, in 1963 we 
have the bed shed of about 25,000 square kilometers. Now it is 
only 2,500 square kilometers due to climate change. So it is 
now one-tenth of what it used to be. So, what that has done is 
create conditions for conflict that is affecting now about 50 
million people or so in that region.
    So, I think a comprehensive approach needs to be taken to a 
solution if we want it to be really long-lasting and impactful.
    Mr. Meservey. And I think the terrorism challenge 
associated with Boko Haram and its splinter group is profound. 
The good news is that Boko Haram has lost most of its 
strongholds over the last number of years because of this 
multinational force.
    But the Nigerian Government has been unable to deliver the 
security and the services and other things that are necessary 
to really stabilize the northeast, so Boko Haram has survived 
and is now actually resurgent, I would say, as is its splinter 
group ISIS West Africa Province, which just at the beginning of 
this year conquered hundreds of square miles of territory in 
three different countries.
    They are establishing a State. They are now administering 
it in some ways. They have--it is not nearly as extensive, of 
course, as the ISIS State in, or was in the Middle East, but 
those are clearly their aspirations. And they have made very 
serious gains in recent times.
    So it is a very difficult problem set in a belt, as my 
colleague just mentioned here, where you have all sorts of very 
negative trends converging that makes it very hard to eliminate 
these groups.
    Mr. Burchett. Thank you. One more, if I have time, 
Chairlady, for one more question?
    Ms. Bass. Yes.
    Mr. Burchett. Thank you, ma'am.
    I am concerned about the investments that China is making. 
And I am wondering what the U.S. should be doing to counter 
some of the influence that they are having in Africa? And to 
what extent are some of these investments a threat to our 
interests, including our diplomatic development and security 
objectives?
    And the followup of that, if the United States were to 
significantly reduce its foreign aid to Africa, would China, do 
you all feel like China would seek to fill the gap, and how 
they would do that?
    Ambassador Thomas-Greenfield. China, over I would say the 
past decade, has gone into Africa fast and furiously. They have 
changed their approach. It has evolved over, over time.
    Initially, they would go in and do a stadium or some small 
project and to buy influence. Now they are doing major 
infrastructural projects. The issue at hand is that all of 
these infrastructural projects, some of them better than 
others, are needed on the continent of Africa. Africans need 
railroads, they need roads, they need refurbished airports and 
ports. And we have ceded that space to China.
    And it is important if the U.S. sees its role as 
competing--and I do not see us as competing with China because 
I think we have different resources that we bring to the table; 
we are not going to bring those large projects--I think the 
better approach for us to take is to work with our African 
partners to ensure that they have the capacity to strike and 
negotiate better deals with the Chinese. Because, again, the 
kind of deals that they are getting with the Chinese, we do not 
have the wherewithal to do that.
    But we need to pay attention to what is happening because 
our influence on the continent is waning in comparison to 
China. And if we start to decrease our foreign aid the Chinese 
will come in in some way or another to support these countries. 
They are not going to come in with the same values that we 
bring to the table.
    And in my conversations with African leaders and business 
people alike, their preference is to have the United States 
there. And their question to us every day is: Where are you? 
Why are you not there? And you cannot tell us we cannot engage 
with the Chinese if you are not prepared to engage with us.
    Ms. Bass. Did anybody else want to respond to that?
    Mr. Coulibaly. Yes. I just wanted to underscore the 
Ambassador's point.
    So, the really best way to counter China, if that was the 
objective, really is to solve Africa's infrastructure problem. 
It is really huge.
    Mr. Burchett. Say that again.
    Mr. Coulibaly. Is to solve----
    Mr. Burchett. I am sorry, I am from East Tennessee and I 
did not understand that.
    Mr. Coulibaly. Is to solve Africa's infrastructure 
problems. I mean, the demand there is huge, huge because of the 
low point where they are starting from given the stage of 
economic development. But also huge because they are 
experiencing very rapid demographic growth and rapid rate of 
urbanization. Estimates put it at about $130 to $170 billion a 
year. That is what is needed for infrastructure financing in 
Africa. And two-thirds of that amount, or 60 percent or more, 
is unfunded.
    And I think that is what China has aligned itself with the 
African nations, and that is why they are responding 
positively. But I am hopeful that at least as we roll out the 
Development Finance Corporations that was part of the BUILD 
Act, that is going to be able to come in and allow the U.S. to 
begin to play more in that space.
    Ms. Bass. Thank you. Thank you very much.
    Did you want to say something? Go ahead.
    Mr. Meservey. Just briefly.
    Ms. Bass. Sure.
    Mr. Meservey. I think it is I agree, I do not think the 
message to our African partners should be us or them. That is 
not going to work because China does provide certain things 
that African countries need. But helping African countries 
strike better deals, as the Ambassador mentioned, with China is 
really important, but also providing an alternative.
    We cannot do that, frankly, on most big infrastructure 
projects because we do not have a lot of companies that do that 
sort of thing. We do not heavily subsidize them as the Chinese 
Government does with its State-owned, obviously, enterprises. 
So, we need to look at competitive advantages that the United 
States has, which industries do we have a real, obvious 
advantage, focus on those.
    And I think that we need to in terms of the larger 
competition with China, where we do compete is around the 
model. And, you know, Beijing is increasingly pushing this idea 
to African countries that you can have economic growth but you 
just need to crack down on the pesky journalists and the civil 
society and things of that nature, as we do. And look at how 
successful we have been.
    So that is, there is an obvious competition there. And the 
U.S. needs to engage in that competition of ideas especially, 
and make sure we are messaging properly about the benefits of 
democracy, of the free enterprise system, and things of that 
nature.
    Ms. Bass. You know, I would continue with that because I 
think one of the big concerns right now is we are not really 
sending a strong message from the Administration in that regard 
to counter that. And, you know, my experience, along with the 
witnesses, and I am sure many people in the room, is that the 
African countries would rather do business with us. But we 
cannot, we are not in a position to tell them they should turn 
their backs on China when China is there and we are not.
    And really, the question is, you know, for us to step up 
our involvement.
    And so, to my colleague from Tennessee, two things. You 
know, one, hopefully, because you were asking the question 
about security, hopefully, if you are available, you could 
attend the CODEL, the congressional delegation. Because that is 
exactly what we want to look at.
    And then in terms of Africa's infrastructure, we are 
working on a piece of legislation we are calling Move Africa 
that the purpose is to incentivize U.S. businesses to do 
transportation-related infrastructure projects. And so, I think 
that overall our perspective on Africa, we treat the continent, 
frankly, like we treat inner city communities, which is from a 
point of view of charity as a point of view, as opposed to 
partnership, and recognizing that on the African continent 
there are tremendous opportunities.
    It seems like the rest of the world knows that but we are a 
little bit, you know, late to the party. So we need to, you 
know, improve our game.
    One of the--so my questions are really focused on what we 
need to do here in Congress to improve the situation. So, one 
of the issues is our designation of middle income countries 
that then make some countries not eligible for, like, MCC and 
other programs. And I wanted to know if anybody on the panel 
has any solution as to how we should come up with the--what 
formula we should use. Because if we just use income, it does 
not take into account the inequity. So, you know, the annual 
income of somebody might be $15,000 but we know that that is, 
that is averaged because people at the top are making so much.
    So, I would like to take a look at middle income countries, 
that designation, since I believe it excludes so many other 
countries.
    In terms of Mozambique, want to know your thoughts on if we 
are doing enough. Should we be providing more assistance?
    On the issue of Sudan, there is a lot of people that are 
concerned with what is happening in Sudan right now. And the 
Obama Administration and the Trump administration was 
continuing, I do not know about a rollback but, I mean, you 
know, the different phases, and we have not gotten to Phase 2. 
But there is some push here in Congress to actually move back 
to sanctions, you know, in a much bigger way as opposed to the 
movement forward toward normalization and relationships.
    And so my question is, given what is happening in Sudan 
right now, do you think the time is now for us to strengthen 
sanctions, strengthen State-sponsored terrorism in terms of 
that designation. And by strengthening it I mean in moving it 
from the administration deciding to, you know, having to have 
congressional approval, which is actually kind of the way it is 
now, but restating it and making it stronger, stricter before 
we would consider lifting it.
    So, I will start with those. And I will start with Madam 
Ambassador, go down the row. And then if Representative Omar 
has additional questions she would like to ask, we will go 
there.
    Ambassador Thomas-Greenfield. I am going to bunt a little 
bit on the designation of middle income countries because I 
think, I am not sure it is a U.S., it is just the U.S. that 
makes that designation. And I do, I am aware of several 
countries who benefited from the MCC----
    Ms. Bass. Right.
    Ambassador Thomas-Greenfield [continuing]. And then 
suddenly they no longer benefited because they had moved up the 
scale. So, we punish them for their improvement.
    Ms. Bass. Yes. We do that domestically, too.
    Ambassador Thomas-Greenfield. Yes. So we----
    Ms. Bass. As soon as you get better we cut you off.
    Ambassador Thomas-Greenfield. So we need to look at, I 
agree that we need to look at it. I do not know how.
    Ms. Bass. But where does that designation come from? That 
is not--is it U.N. or?
    Mr. Coulibaly. No. I am not aware of really a precise 
scientific method that has allowed for that limitation.
    Ms. Bass. Well, I am sure it is not scientific. I just 
wondered where it came from.
    I am glad you guys do not know. That means there is room 
there then.
    Ambassador Thomas-Greenfield. There is room there.
    Ms. Bass. OK.
    Ambassador Thomas-Greenfield. On Mozambique, Madam Chair, 
there is so much to be done there. The pictures that we are 
seeing coming out of Mozambique are just horrifying. And I know 
that the U.S. is there on the ground, along with others. I 
think we were a little bit late in responding. It was almost a 
week before it even started getting press coverage here in the 
United States.
    So, again, I think our colleagues from USAID and the State 
Department are actively engaged. Our military is engaged. But I 
think it is going to take more engagement and more resources 
for them. So I think we need to look at the resource, resource 
base that they are working from and see if there are any 
possibilities of increasing the funding and the resources that 
they have to respond to this.
    Ms. Bass. Well, it is appropriations season, so it is 
definitely time for us to look at that.
    Ambassador Thomas-Greenfield. And on Sudan, you know, your 
question was an interesting one. I think part of what is 
happening in Sudan is because of what we have been working 
toward in the Sudan. So I do think, and again I am coming from 
a position of having worked on this issue during the Obama 
Administration, but I do think that we should continue the path 
we are on with them, continue pushing and pressuring the 
government. Part of the reason the government is responding to 
our pressure is because they want this to continue.
    And on the issue of State sponsor of terror, they have 
regularly told us that we have continued to move the goalposts 
on them on that particular issue. And I believe that this is an 
unrelated issue, but I suspect that the handwriting is on the 
wall in Sudan, and the transition and the changes that are 
taking place are changes that we have all been watching and 
waiting for. And I think any efforts on our part to pull back 
now may send the wrong signal. The government may decide there 
is no reason that they cannot really crack down. And they have, 
I think they have been somewhat restrained.
    Ms. Bass. Thank you.
    Mr. Coulibaly. On the issue of the middle income country, 
the limitation, so, although I am not aware of a scientific 
method that determines it, one of the guiding principles for 
this is that is these are countries that have reached a certain 
stage whereby they can now tap into the markets. They can use 
their other sources for financial needs.
    Ms. Bass. But it is not true; right?
    Mr. Coulibaly. Yes, it is not exactly always true.
    One perhaps approach, and I think you are right that with 
inequality sometimes you may have the income and the country as 
a whole at a high level of income, but many parts of it are 
still struggling. And I think that was an important clause of 
the BUILD Act in setting the U.S. IDFC to recognize there could 
be needs even for upper-middle income countries where it is 
showing that some segments of the population are still, still 
struggling.
    So one possibility then is to, to start there, but then to 
also look at the Sustainable Development Goals.
    Ms. Bass. Yes.
    Mr. Coulibaly. The Sustainable Development Goals trackers 
are now just coming out.
    Ms. Bass. Yes. Are you saying maybe look at both? Because 
if you look at, if you add in the Sustainable Development Goals 
then it goes south. You know what I am saying? Because just 
because you reached an income status does not mean you achieved 
those goals at all.
    Mr. Coulibaly. Well, I think the Sustainable Development 
Goals, of course, should be taken certainly into account, 
particularly some of the priority area targets. Right? So we 
can start there.
    Ms. Bass. Yes.
    Mr. Coulibaly. And then see, which are the countries that 
are way off track.
    If you look at, for example, sub-Saharan Africa, the 
poverty rates we have been tracking out of Brookings, some of 
my colleagues' work, show indeed that the continent, the number 
of people, poor people is actually increasing.
    If you take a closer look, a large part of it is due to 
Nigeria, for example, which it would classify as being in a 
better income level than some other countries. But Nigeria is 
one of the countries that is way off track.
    Ms. Bass. Do you know a country where they graduated to 
middle income status where they cannot actually tap into the 
world markets?
    Mr. Coulibaly. So, I think you take a country like South 
Africa, I think they can tap into markets. And over the past 
years, since 2006, we have had about over a dozen countries 
across Africa that have tapped into the global financial 
markets for the first time.
    But I also subscribe that some of them may have tapped into 
it while not being fully ready to----
    Ms. Bass. Yes.
    Mr. Coulibaly [continuing]. To take on more debt than they 
should be taking on.
    And you may very well know that there is now an issue of 
whether Africa is facing another debt crisis.
    Ms. Bass. To China?
    Mr. Coulibaly. Yes. Reminiscent--China is part of it.
    Ms. Bass. Right.
    Mr. Coulibaly. But there is also the markets precisely, a 
lot of Euro bonds that have been issued.
    And then there is a question then as to whether we are 
facing, again, another debt forgiveness episode like what we 
have seen earlier in the decade. So I think starting with the 
SDGs, trying to see whether we can come in and then assess the 
alternative sources of financing that they might have. Do they 
really have access to markets at a reasonable cost like it is 
somewhat portrayed today.
    And then speaking of debt and Mozambique, to get to your 
question on Mozambique, I think they could definitely use help 
because it is one of the countries that has had a debt level 
over 100 percent of GDP. And they are now classified as being 
in debt distress.
    So there is really not much scope from them to mobilize 
their own resources to deal with this tragedy. And I think they 
could use as much help as possible, especially through regional 
actors as well as the U.S., to step in a leadership role to 
galvanize more support for Mozambique.
    Ms. Bass. Mr. Meservey?
    Mr. Meservey. Yes. On Mozambique I agree, I think the 
critical part of this will also be a sustained effort. Because 
the level of devastation is really extraordinary. And this is 
going to be a long-term challenge. So, yes, obviously the 
disaster response is crucial and the U.S. is involved in that 
and should continue to look for options to ramp up its 
engagement. But certainly thinking through, OK, after, you 
know, a week has passed, or two or 3 weeks, how do we continue 
to help ameliorate some of the fallout of this crisis.
    And then just quickly on Sudan. I think it is important to 
keep what is happening as far as protestor concerns separate 
from Phase 2 because they are in some ways separate issues. So, 
I do not think that the any sort of activity or actions by the 
U.S. to punish what Sudan is doing, and they have engaged in a 
brutal crackdown, to use the Phase 2 negotiations as a vehicle, 
I do not think that is the best vehicle to use.
    I think it is very appropriate to think about Magnitsky, 
for instance, or some other avenue that we have because the 
Sudanese Government has responded brutally and it should be 
held accountable. But it is a separate issue from the Phase 2 
negotiations.
    Ms. Bass. Thank you. Representative Omar.
    Ms. Omar. Dr. Coulibaly, you talked about the use in Africa 
on the continent that 40 percent of the world's population are 
going to be in Africa and 42 percent of the work force will be 
in Africa. And when we were in Ethiopia and Eritrea just 
recently, a lot of the young people talked to us about the 
hopes and aspirations that they have as we move into the world 
in ways that we can invest.
    So, I just wanted to see if you had an idea of one 
particular investment we can make as a country to assist the 
youth in Africa that would make a real impact.
    Mr. Coulibaly. Yes. I would emphasize the area of education 
and skills. I think, as I mentioned, 42 percent of the global 
work force, and now imagine that work force being imparted with 
the skills of the 21st Century. This would really be a global, 
not just African, economic success. And the opportunity is 
going to really expand the global middle class and create 
market opportunities that everybody is going to benefit from.
    But when you look at the educational systems they are being 
crammed because of demographic growth, the infrastructure in 
classrooms--we touched on that earlier--is not keeping up. So, 
in classes where they are supposed to have 40 students they now 
have, like, 80 students or 100 students. In that context, it is 
becoming difficult to test them. The quality of education 
itself, even the lucky ones who get one, could be decreasing.
    And another area that could be helpful is to leverage 
technology, for example, initiatives that can bring technology 
to education can allow to maintain that quality and be able to 
scale up.
    Ms. Omar. That is wonderful.
    I was just meeting with some tech folks from Africa. And 
when the Black Caucus has its conference in September I hope 
that that will be my sort of sessions around technology and 
investments that we could make in Africa. So, we will see how 
that goes.
    But I wanted to come back to something that was in the 
testimony of Mr. Meservey. Right?
    Mr. Meservey. Yes.
    Ms. Omar. All right. You had mentioned in your testimony 
that Saudi Arabia has promoted Wahhabism in Africa, and that 
has contributed to the rise of jihadist thinking and terrorist 
recruitment on the continent. I would say, you know, we could, 
we could sort of agree on that.
    Is it fair to say that our unwavering support for the Saudi 
Government has been counterproductive to our security goals in 
Africa?
    Mr. Meservey. Saudi Arabia is one of those very difficult 
situations because there is no doubt that they are an important 
counterweight to Iran in the Middle East which, as we know, is 
involved in all sorts of nefarious activities in Syria and 
beyond. But I also, as you referenced in my testimony, I think 
there is no doubt that their activities--and it is not just 
Saudi Arabia that is engaged in this but they have been the 
primary and the most aggressive in proselytizing this way, that 
I think that is a long, that presents a long-term strategic 
challenge to the United States, and to African countries 
frankly.
    There are African governments concerned about this 
phenomenon as well.
    So, I think that the U.S. has addressed this, or I know it 
has, with the Kingdom of Saudi Arabia. Needs to do more. And I 
also think it needs to press Saudi Arabia to think, OK, how do 
you put the genii back in bottle so to speak because they have 
proselytized this all across the world. Now what? How do you 
start rolling this back? Because I think it is very much part 
of their responsibility to work on that.
    Now, whether their domestic politics will ever allow them 
to do that is an entirely different question. But I think that 
is part of the message the U.S. should be sending.
    Ms. Omar. OK. So let me see if I understand. They are 
spreading this ideology. And then we have reports that they are 
actually funding terrorists. But we are partnering with them to 
help us fight the ideology and terrorism? Is that what you are 
saying? That is the suggestion?
    Mr. Meservey. Well, it is two separate ideologies we are 
talking about.
    Ms. Omar. You are the problem and we need you to fix the 
problem?
    Mr. Meservey. Yes. Well, so Iran is, is----
    Ms. Omar. No, no, I, I get that. I am just saying on Saudi 
Arabia,----
    Mr. Meservey. Sure, sure.
    Ms. Omar [continuing]. So they are the problem but they 
are, we are also going to partner with them to fix themselves. 
And the problem that they are creating is precisely what you 
said; right?
    Mr. Meservey. Well, it is, I mean, unfortunately these are 
the sorts of decisions you have to make in foreign policy 
sometimes. And so in the Middle East arena we have this very 
obvious problem of a country, talking about Iran, that has, for 
instance, during the Khobar Tower bombings killed scores of 
American soldiers. They did it in Afghanistan. They have been 
aggressive enemies of the United States.
    Ms. Omar. Yes.
    Mr. Meservey. So, so there is that sphere. And then you 
have this other sphere of this Wahhabist problem that I 
referenced.
    And I think you can do both. It is one of those strange 
bedfellow situations but it is the unfortunately reality, 
frankly, of the Middle East.
    Ms. Omar. Right.
    Mr. Meservey. So I----
    Ms. Omar. No, I, I hear you. I appreciate that. It is a 
challenge but one that is not often looked at with clear 
lenses.
    So, in your testimony you also mentioned that 12 of the 23 
countries most affected by terrorism are in Africa. In the 
report you reference Somalia, which is where my family is from 
and I was born, and it is ranked sixth in the world and second 
in Africa after Nigeria in terms of impact of terrorism. As you 
know, the major part of U.S. strategy of combating al-Shabaab 
in Somalia has been the use of drones. Under the Trump 
administration, drone strikes in Somalia have tripled, now 
totaling more than Libya and Yemen combined.
    AFRICOM denies any civilian casualties resulting from drone 
strikes in Somalia. But this is contradicted by reports from 
numerous investigative journalists and human rights 
organizations. Just last week Amnesty International released a 
report, which I will be submitting for the record, a report 
documenting the killings of 14 civilians in just five drone 
strikes.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Ms. Omar. AFRICOM confirms that four of the strikes were 
conducted by the United States but denies any civilian 
casualties took place. Their spokesperson said that the way 
they determine civilian casualties is not available to Amnesty 
International or, indeed, any other non-military resource.
    My question to you is do you find this to be credible in 
the face of overwhelming reports that are to the contrary? And 
that we have not killed any civilians in the decades of drone 
strikes that we have had in Somalia?
    Mr. Meservey. Sure. Thank you for the question.
    So, a couple thoughts. One, it is I know that the U.S. 
military takes every effort to avoid civilian casualties. It is 
part of their SOPs, it is part of the ethic to which they 
subscribe. I also know that there is a fog of war in a place 
like Somalia and that, given the context of the conflict there, 
it is very difficult to sometimes distinguish between 
combatants and non-combatants.
    So it is, you know, you can either have indiv----
    Ms. Omar. Could a drone strike be 100 percent accurately, 
right, attacking? Or could----
    Mr. Meservey. I think it is possible.
    Ms. Omar [continuing]. A report that says 100 percent no 
civilians----
    Mr. Meservey. Yes, so that is actually----
    Ms. Omar. Would that be correct, is what I am asking you?
    Mr. Meservey. Yes. I think it is possible. But I think it 
is, frankly, impossible to know given how, what a non-
permissive environment it is.
    How do you even gather the facts on the ground in some of 
these places that are still controlled by al-Shabaab? You 
cannot go there safely. And, again, how do you distinguish 
between a combatant and a non-combatant when, you know, you 
have farmers who are armed sometimes? Some join al-Shabaab and 
leave, and then join again and leave. So it is incredibly 
difficult.
    And so I think it is possible that civilians have been 
killed. I also think it is possible, maybe not. For me it is, 
frankly, impossible to know, I think.
    Ms. Omar. Right. I hope it is not. It is a very challenging 
thing which, you know, it is one of those situations where they 
were making an investment to infrastructure, or figuring out if 
we invest in education, or how to best fight terrorism if we 
are not truly finding a path to have partnerships with the 
individual countries that are being impacted. Then we sort of 
kind, you know, are short-ending ourselves and them. And any 
investment that we are making, really, truly it is not ever 
going to have the kind of impact that we want it to have 
because there is a correlation between every--some of the 
reports say that there are correlations between every drone 
attack and the increase of suicide bombs that happen in 
Somalia.
    And so when we are trying to be effective in combating 
terrorism but our actions could lead to an increase, and we get 
to have a problem for investing in education, and we, we are 
saying, you know, we are going to be sending you books but we 
do not really make the investment that the communities 
themselves need where they need the brick and mortar 
investment, then there is a problem if we are talking about 
diplomacy. And we are not really having a conversation about 
what it means for us to send thousands and thousands of 
Liberians back to a country that could be fractured by that, 
without having the proper conversations with the Government of 
Liberia whether they could sustain that. Then it is a problem.
    And I hope that as we continue to have a conversation about 
Africa, that we engage Africa and what that process looks like.
    Ms. Bass. OK. I just have one last question and then we 
will wrap up.
    I believe a couple of you mentioned the idea that we needed 
to have a second African Leaders Summit. And I wanted to know 
if you would just expand on that. How do we do that now?
    Ambassador Thomas-Greenfield. I was part of the planning 
for the first Africa Summit that took place in 2014. I saw the 
positive impact that came from that summit, bringing African 
leaders from across the continent to the United States to 
engage with our leaders.
    Other countries are doing it on a regular basis. China has 
one I think every other year. The Japanese host one every other 
year. The Europeans are hosting one.
    Ms. Bass. So the question would be who would host it?
    Ambassador Thomas-Greenfield. Who would host that?
    Ms. Bass. Right. I mean, you know, the issue would be would 
the African leaders respond to Congress.
    Ambassador Thomas-Greenfield. I think they would.
    Ms. Bass. You do.
    Ambassador Thomas-Greenfield. I think they would respond to 
a request to come to the United States by President Trump. They 
want to engage with our leadership. They want to engage on 
issues that are important to them. And I think it will send a 
positive signal if the president were to invite them to attend.
    Ms. Bass. So, what I said was Congress.
    Ambassador Thomas-Greenfield. Yes.
    Ms. Bass. I mean, you know, and I am just saying that just 
because I do not know. You know what I mean, in terms of the 
Administration, if the Administration was not interested in 
doing it, you know, is there another way you would convene a 
leaders summit.
    Ambassador Thomas-Greenfield. You know, when I think about 
the prayer breakfast and how many leaders come to that, I think 
an invitation from our Congress would probably--you may not get 
all 54 but you would get a significant enough number that it 
would, it would be successful. And others would be, the ones 
who did not come would regret that they had not come. And it 
would, you know, you can set some goals to achieve during this 
conference. And I think leaders would respond.
    Ms. Bass. You know, to my ranking member, when we, as 
Representative Omar mentioned, we went to Eritrea and Ethiopia. 
And, you know, just so excited about the potential in Ethiopia 
and the fact that the prime minister has established peace with 
Eritrea. And, you know, they are trying to come together in the 
Horn. That it would be nice to invite the prime minister over. 
Maybe he could even, you know, address both houses of Congress. 
We have that happen occasionally as to send a strong signal.
    If either of you have any other closing thoughts?
    Mr. Coulibaly. I would like to even go a step further to 
suggest a regular, every three or 4 years, kind of a summit 
between U.S. and African head of States. That gives us an 
agenda to work toward and some clear targets to achieve by 
then. But then in between obviously lower level staff can 
engage across the different African governments and the U.S. 
agencies, et cetera, to prepare for the summit, also to work on 
what came out of the summit.
    And as the Ambassador mentioned, it has been a resounding 
success for all the countries who are holding those regular 
summits in terms of advancing their agenda in Africa. And it is 
really one place where there is a feeling that the U.S. is 
missing.
    So I think that is very critical. When the U.S. held the 
summit in 2014, I think about $14 billion or so was mobilized 
as far as U.S. businesses' investments intentions in Africa. 
So, clearly, there is scope for it to really boost the U.S. 
commercial ties with the continent.
    Just one point in closing. It is basically the level of 
engagement with Africa, there is really a strong tendency now 
or aspiration for Africa to unite and then to take some 
regional approach to some issues that are of mutual interest. 
And you may be very well aware of the Africa Continental Free 
Trade Area.
    Ms. Bass. Yes. I am familiar with that, yes.
    Mr. Coulibaly. That is advancing. And I think as of----
    Ms. Bass. How many countries are left to sign on?
    Mr. Coulibaly. As of last----
    Ms. Bass. Just one? Who is that?
    Mr. Coulibaly. As of last week we are one vote away, from 
it coming into effect.
    Ms. Bass. Good.
    Mr. Coulibaly. However, I think as outlined, too, in 
Ambassador Bolton's strategy but also some commentary that came 
out of the AGOA summit over the summer, the U.S. approach and 
that of the African counterparts is not quite fully syncing 
yet. The U.S. is currently talking bilateral engagement while 
the African countries----
    Ms. Bass. Right.
    Mr. Coulibaly [continuing]. Are talking regional 
engagement.
    Ms. Bass. Right.
    Mr. Coulibaly. So, hopefully, there could be some middle 
grounds where they will feel like----
    Ms. Bass. That is a little bit of a disconnect.
    Mr. Coulibaly. Yes. So they will feel like that their 
viewpoint is important----
    Ms. Bass. The administration as Congress'.
    Mr. Coulibaly. But it is an important one because it is 
going to signal to what extent the U.S.----
    Ms. Bass. Right.
    Mr. Coulibaly [continuing]. Is supportive----
    Ms. Bass. Right.
    Mr. Coulibaly [continuing]. Of the regional initiatives for 
integration. And we know that they need that integration 
because the States are sort of small States----
    Ms. Bass. Right.
    Mr. Coulibaly [continuing]. And it is going to scale that 
integration that can help boost economic opportunities and 
competitiveness on the continent.
    For example, intra-Africa trade is only 17 percent.
    Ms. Bass. Uh-huh.
    Mr. Coulibaly. And if you look at intra-European trade, 70 
percent. Asia, 60 percent plus. Here in North America you are 
looking at 30 percent or more. So it is indeed quite important 
and critical.
    So as I begin to think about the post-AGOA architecture for 
U.S.-Africa engagement, taking into account that regional 
dimension would be important.
    Ms. Bass. And I think it is right to think about post-AGOA. 
But we do still have a few more years left. And so I would also 
like to think about how do we maximize the time that we have.
    Mr. Coulibaly. Yes. To be able to have something even 
earlier----
    Ms. Bass. Right.
    Mr. Coulibaly. --I think that is better.
    Ms. Bass. It is right to think about that.
    Mr. Coulibaly. But clearly the thinking should be----
    Ms. Bass. Yes.
    Mr. Coulibaly [continuing]. Going on now. And if you look 
at the European Union at their summit in 2017, they made a 
promise to actually go toward a continent-to-continent kind of 
arrangement.
    If you look at China during FOCAC, they try to align their 
programs with Africa's aspirations such as the Continental Free 
Trade Area, for example. So it is important also in the U.S.'s 
engagement to incorporate the views and aspirations of the 
African people to align the two agendas.
    Ms. Bass. You would think?
    Any more thoughts?
    Mr. Meservey. Yes. I think I would like to see a routine 
U.S.-Africa Leaders Summit as well for all the mentioned, or 
for all the reasons that Dr. Coulibaly laid out.
    I also think regular meetings between the presidents in the 
Oval Office with a head of state or African head of state maybe 
once a quarter or something. These high level engagements 
really matter.
    Ms. Bass. Yes.
    Mr. Meservey. The, you know, CODELs are important. I am 
glad when those happen.
    Ms. Bass. Yes.
    Mr. Meservey. Just to maybe give some--to put a point on 
this, you know, President Xi Jinping his, in each of his two 
terms his first overseas trip was to Africa. The Chinese 
foreign minister's first overseas trip every year is to Africa.
    They understand the importance of this high level 
engagement. And the U.S. just, this is one of the areas the 
U.S. needs to be better.
    Ms. Bass. Yes. And I think, you know, one of our challenges 
is to, you know, as I have learned in Congress, administrations 
come and go but Congress stays the same. So I think all of us 
would love to see high level engagements but we cannot, you 
know, control that.
    And so, and I do know from talking to a number of heads of 
State that they want to come over here. But, frankly, it is a 
little inappropriate unless they meet the head of State. And 
they have not received an invitation from the President. So a 
number of them have not come because it is like, you know, I 
cannot go over there until, you know.
    So that is, that is a little bit of a dilemma. And I would 
really like to----
    Ambassador Thomas-Greenfield. I would argue against that 
though, Madam.
    Ms. Bass. OK, please.
    Ambassador Thomas-Greenfield. I know that the President of 
Ghana has been here several times.
    Ms. Bass. Yes, that is true.
    Ambassador Thomas-Greenfield. And he has had very good 
meetings on The Hill, with the private sector, with its 
diaspora.
    When I meet with African leaders and they tell me they do 
not want to come because they cannot get a meeting with the 
president, I tell them they are missing out on the opportunity 
to meet with you.
    Ms. Bass. OK. OK. And you know what, as actually the 
President of Ghana is in the U.S. right now. I mean, he is 
going to be speaking at Harvard in a day or so. And we both 
recently met with the President of Sierra Leone. And maybe we 
could ask them to take that message back. Because I could see 
us having consistency with leaders, but it is not--you cannot 
speak for whatever, you know, administration is going to come 
and go.
    Well, I want to thank everyone for the time, the patience. 
And just in closing, a couple of closing comments.
    You know, we have said that we were doing this hearing. And 
we are going to do several more that really we are calling 
Africa 101. It is to just give the broad strokes as to where 
the continent is, where U.S. policy is, to figure out where we 
go from here, recognizing that we do have some immediate crises 
and issues that we need to attend to right away, but to provide 
the members of the committee with a broad overview of U.S.-
Africa relations.
    So, I want to thank the witnesses and members for being 
here today. And if there is no further business, without 
objection, the committee stands adjourned.
    [Whereupon, at 4:13 p.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
